<html>
<title> - VARIOUS MEASURES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






                            VARIOUS MEASURES

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   ON

              H.R. 2901, H.R. 5206, H.R. 5241, H.R. 5656,
           H.R. 5685, H.R. 5710, H. Res. 714 and H. Res. 758

                               __________

                           NOVEMBER 20, 2014

                               __________

                           Serial No. 113-225

                               __________

        Printed for the use of the Committee on Foreign Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______
                                 
                             U.S. GOVERNMENT PRINTING OFFICE 

91-458 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                             
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
DOUG COLLINS, Georgia                GRACE MENG, New York
MARK MEADOWS, North Carolina         LOIS FRANKEL, Florida
TED S. YOHO, Florida                 TULSI GABBARD, Hawaii
SEAN DUFFY, Wisconsin                JOAQUIN CASTRO, Texas
CURT CLAWSON, Florida

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H.R. 2901, To strengthen implementation of the Senator Paul Simon 
  Water for the Poor Act of 2005 by improving the capacity of the 
  United States Government to implement, leverage, and monitor 
  and evaluate programs to provide first-time or improved access 
  to safe drinking water, sanitation, and hygiene to the world's 
  poorest on an equitable and sustainable basis, and for other 
  purposes.......................................................     2
  Amendment in the nature of a substitute to H.R. 2901 offered by 
    the Honorable Ted Poe, a Representative in Congress from the 
    State of Texas...............................................    56
H.R. 5206, To allow Foreign Service and other executive agency 
  employees to designate beneficiaries of their death benefits...    76
  Amendment in the nature of a substitute to H.R. 5206 offered by 
    the Honorable Alan Grayson, a Representative in Congress from 
    the State of Florida.........................................    78
H.R. 5241, To prohibit United States Government recognition of 
  Russia's annexation of Crimea..................................    79
H.R. 5656, To authorize the Feed the Future Initiative to reduce 
  global poverty and hunger in developing countries on a 
  sustainable basis, and for other purposes......................    81
  Amendment in the nature of a substitute to H.R. 5656 offered by 
    the Honorable Christopher H. Smith, a Representative in 
    Congress from the State of New Jersey........................    95
      Amendment to the amendment in the nature of a substitute to 
        H.R. 5656 offered by the Honorable Christopher H. Smith..   108
H.R. 5685, To amend the State Department Basic Authorities Act of 
  1956 to require congressional notification not less than 15 
  days after a reward is authorized under the Rewards for Justice 
  Program of the Department of State, and for other purposes.....   110
H.R. 5710, To authorize the provision of assistance on an 
  emergency basis for countries affected by or at risk of being 
  affected by the outbreak of the Ebola virus disease to 
  effectively address such outbreak at its source, and for other 
  purposes.......................................................   112
  Amendment to H.R. 5710 offered by:
  The Honorable Christopher H. Smith.............................   122
  The Honorable David Cicilline, a Representative in Congress 
    from the State of Rhode Island...............................   123
  The Honorable Scott Perry, a Representative in Congress from 
    the Commonwealth of Pennsylvania.............................   125
H. Res. 714, Reaffirming the peaceful and collaborative 
  resolution of maritime and jurisdictional disputes in the South 
  China Sea and the East China Sea as provided for by universally 
  recognized principles of international law, and reaffirming the 
  strong support of the United States Government for freedom of 
  navigation and other internationally lawful uses of sea and 
  airspace in the Asia-Pacific region............................   126
  Amendment in the nature of a substitute to H. Res. 714 offered 
    by the Honorable Eni F.H. Faleomavaega, a Representative in 
    Congress from American Samoa.................................   134
H. Res. 758, Strongly condemning the actions of the Russian 
  Federation, under President Vladimir Putin, which has carried 
  out a policy of aggression against neighboring countries aimed 
  at political and economic domination...........................   143
  Amendment in the nature of a substitute to H. Res. 758 offered 
    by the Honorable Eliot L. Engel, a Representative in Congress 
    from the State of New York...................................   157

                                APPENDIX

Markup notice....................................................   184
Markup minutes...................................................   185
Markup summary...................................................   187
The Honorable Christopher H. Smith:
  Prepared statement.............................................   188
  Material submitted for the record..............................   190
The Honorable Eni F.H. Faleomavaega, a Representative in Congress 
  from American Samoa: Prepared statement........................   191
The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
  from the State of Florida: Prepared statement..................   192
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........   193
The Honorable William Keating, a Representative in Congress from 
  the Commonwealth of Massachusetts: Prepared statement..........   194

 
                            VARIOUS MEASURES

                              ----------                              


                      THURSDAY, NOVEMBER 20, 2014

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 9:32 a.m., in 
room 2712, Rayburn House Office Building, Hon. Ed Royce 
(chairman of the committee) presiding.
    Chairman Royce. All right. We are going to ask all the 
members to take their seats, and this committee will come to 
order.
    Pursuant to notice, we meet today to mark up eight 
bipartisan measures. And I want to begin by thanking all our 
committee members. And I want to thank the staff on both sides 
of the aisle here for the extensive preparation that went into 
this markup today.
    Without objection, all members may have 5 calendar days to 
submit statements for the record.
    And all members were notified yesterday we now intend to 
consider en bloc the eight measures and amendments provided to 
your offices previously. And so, without objection, the 
following items will be considered en bloc: H.R. 2901, the 
Water for the World Act; Poe Amendment 110 in the nature of a 
substitute; H.R. 5206, to allow Foreign Service officers to 
designate death benefits to the beneficiaries; Grayson 
Amendment 301 in the nature of a substitute; H.R. 5241, the 
Crimea Annexation Non-recognition Act; H.R. 5656, the Global 
Food Security Act; Smith Amendment 80 in the nature of a 
substitute and Smith Amendment 84 to the amendment; H.R. 5685, 
the Rewards for Justice Congressional Notification Act; H.R. 
5710, the Ebola Emergency Response Act; Smith Amendment 82; 
Cicilline Amendment 51; and Perry Amendment 45; House 
Resolution 714, regarding the peaceful resolution of maritime 
and jurisdictional disputes in the Asia-Pacific region; 
Faleomavaega Amendment 22 in the nature of a substitute; and, 
last, House Resolution 758, condemning the actions of the 
Russian Federation toward neighboring countries; and Engel 
Amendment 68 in the nature of a substitute.
    [The information referred to follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
          
    Chairman Royce. So after opening remarks by myself and the 
ranking member, I will be glad to recognize any member seeking 
recognition to speak on the en bloc items.
    Mr. Rohrabacher. Mr. Chairman?
    Chairman Royce. Yes. Let me recognize the gentleman from 
California.
    Mr. Rohrabacher. Reserving my right to object to the 
unanimous-consent request.
    Chairman Royce. Yes, Mr. Rohrabacher.
    Mr. Rohrabacher. Let me just note that the State Department 
has taken enormous efforts to prevent Members of this body from 
going to certain parts of the world. And, in this case, we are 
talking about Erbil and getting firsthand knowledge of what is 
going on in Kurdistan and the threat that we face in that 
region.
    Not only have I been thwarted in my efforts to do this, to 
get a firsthand look and get firsthand knowledge of this threat 
to our security as well as to the stability of an entire region 
of the world, but I know that you and Mr. Engel have been 
thwarted in your attempts. The chairman of our Foreign Affairs 
Committee and the ranking member, as well as people who have 
been involved in these issues for decades have been thwarted by 
the State Department, unelected bureaucrats, from going to get 
firsthand knowledge.
    All this while our allies--for example, the members of the 
British Foreign Affairs Committee of their parliament--have 
been given free ride to go there and see what is going on and 
make their determinations of what policy their government 
should have.
    Now, I will be going to that region sometime soon, but let 
me note that the arrogance of our State Department in trying to 
prevent us from having firsthand knowledge is unacceptable. And 
if it continues, I will personally object every time there is a 
unanimous-consent request from this administration for any 
funds that will go toward the State Department. And we cannot 
tolerate these types of roadblocks and hampering of our ability 
to have the congressional oversight over American policy that 
we are expected to have.
    Now, let me note, this is not just a problem with this 
administration. So I hope my friends do not think that I am 
saying this in a partisan way. I am not. We have had this 
problem in the past. And it is time for us to make sure that 
the legislative branch can do its job, that we can do our 
responsibility in representing the interests of the American 
people and that, as I say, the unelected appointees who think 
they are the czars of foreign policy better not try to oversee 
democracy, or some of us will prevent any type of legislation 
from coming through that they want to come through this body.
    Mr. Connolly. Would my friend yield?
    Mr. Rohrabacher. I certainly would.
    Mr. Connolly. I just want to say to my friend from 
California, at least speaking for this gentleman on this side 
of the aisle, I couldn't agree with him more. It is not the 
role of any executive-branch agency to prevent the legislative 
branch from undertaking its constitutional responsibilities.
    And while we delegate a lot of responsibility to the State 
Department in the execution of foreign policy, correctly so, 
and there are constitutional boundaries that we must not 
overstep in the delegation of those responsibilities as 
specified also in the Constitution, we have a separate but 
equal role in the Constitution. And the State Department and no 
executive-branch agency must interfere with the execution of 
those responsibilities.
    And if those responsibilities include our travel to areas 
we feel need to be examined, that is our business. That is the 
legislative branch's constitutional right, and it cannot be 
interfered with. So I support the assertion being made by my 
friend from California, and I would hope the State Department 
would relent.
    Thank you.
    Mr. Rohrabacher. Thank you very much.
    And, with that, I withdraw my--do I? No, I still remain----
    Chairman Royce. I appreciate--if I could reclaim my 
recognition, and I will speak to this issue at this time.
    Mr. Rohrabacher. That is correct. Yes, sir.
    Chairman Royce. First of all, let me say that this has been 
an ongoing problem for members of this committee.
    Let me also articulate an observation here, that I believe 
that part of the problem has not only been with the State 
Department but with the government in Baghdad that has made it 
increasingly difficult for Members to fly, obviously, directly 
into Erbil. And we have had close discussions recently and I am 
working with Members here right now on both sides of the aisle 
and with our Ambassador in Baghdad in order to work around this 
problem to make certain that, in the future, our Members can 
travel to Erbil.
    Let me say also that, with respect to the conduct of the 
government in Baghdad, myself and Eliot Engel are introducing 
legislation today which, for the first time, will provide 
temporary authority for us in the United States, for the 
President, to provide weapons directly to the Kurdish Peshmerga 
forces fighting ISIS on the ground.
    And the reason we are doing this--not only, again, is it 
difficult for Members to fly into Erbil because we are blocked 
by the government in Baghdad for doing so directly, but it has 
also been the case that, as over a 600-mile front the Peshmerga 
fight against ISIS, they fight without the weapons that they 
need to properly defend themselves.
    They fight with small arms against armor and artillery and 
mortars. They cannot obtain, or they have had a great deal of 
difficulty obtaining the anti-tank missiles they need, the 
artillery pieces they need, that they are willing to buy, the 
long-range mortars they need, the armor they need.
    And after months of watching these brave men and women--and 
30 percent of these battalions are made up of women, female 
fighters--after watching them hold off these attacks from ISIS, 
it is long past time that our Government figure out a way to 
help those who are bleeding and dying on the ground to actually 
turn back the ISIS battalions, to help them get the weaponry 
they need.
    So let me assure Members on both sides of the aisle that we 
are going to continue to move forward with our initiatives in 
this legislation which Mr. Engel and I have drafted. I urge any 
members here who are concerned about the situation faced by the 
Peshmerga or over these arguments about our engagement with 
those doing most of the fighting on the ground there in Iraq, 
please cosign our legislation.
    We now move back to remarks on the items under 
consideration en bloc. And I will finish my little statement 
here on each of the measures before us briefly, if I could. You 
all have been provided the text of the legislation.
    So we have eight measures by the members before us. Let me 
turn first to Water for the World.
    We have 750 million people lacking access to safe drinking 
water. This bill will ensure that existing U.S. investments in 
water are effective and sustainable by authorizing and 
clarifying the responsibility of two existing advisory 
positions and prioritizing our water programming, placing a 
greater emphasis on its impact and its sustainability.
    And I want to thank Representatives Blumenauer and Poe for 
their good bill. And I see Mr. Blumenauer here. If he would 
stand, and I just wanted to thank him for his engagement with 
this committee. [Applause.]
    And this provides strategic direction to this program and 
improved oversight. And we have put a lot of time and effort 
into it with Mr. Poe.
    We have H.R. 5206, this death beneficiaries provision. And 
I want to thank Mr. Grayson and Mr. Smith for their close 
collaboration on the amendment, which will now allow Foreign 
Service officers to select the beneficiaries of their death 
gratuity after giving priority to widows and dependent 
children.
    H.R. 5241 is the Crimea Annexation Non-recognition Act. I 
want to commend Mr. Connolly and Mr. Chabot for their work on 
this bill. And, frankly, Russia's annexation of Crimea is a 
clear violation of U.N. charter. And Moscow's formal commitment 
to respect Ukraine's sovereigty is violated by what they have 
done, as well. They signed that as part of the 1994 Budapest 
Memorandum.
    So the U.S. has never recognized, obviously, the illegal 
annexation in the past of Estonia or Latvia or Lithuania by the 
Soviet Union, and, by that same argument, we should not 
recognize this act of aggression either.
    H.R. 5656 is Feed the Future. In an effort to break the 
current cycle of dependency on U.S. international food aid, 
USAID has begun investing in programs that develop agricultural 
practices in key countries, particularly this applies to 
Africa. This bill, as amended, captures the best attributes of 
this current strategy while providing a roadmap for future 
work. It enhances congressional oversight. It forces greater 
collaboration across the many agencies engaged in food and 
agricultural assistance. And I want to thank Mr. Smith for his 
leadership in bringing this measure forward today.
    We have the Rewards for Justice, H.R. 5685, offered by Mr. 
McCaul, to ensure that Congress is kept fully informed of 
developments in the State Department's Rewards for Justice 
Program, which offers rewards for information leading to the 
apprehension of terror suspects. I had successful legislation 
last Congress to expand this program, and Mr. McCaul's bill 
adds critical oversight.
    We have H.R. 5710, Emergency Ebola Response Act. And though 
there are signs of progress in Liberia, the Ebola epidemic 
continues to spread throughout West Africa, leaving a trail of 
human and economic destruction in its wake. It is clearly in 
the interests of the United States to support a coordinated 
international effort to contain the outbreak of its source.
    I will mention the French delegation was here meeting with 
us yesterday.
    This bill provides a framework for that response. It sets 
out policy priorities, it provides key authorities, and it 
authorizes vital funding. And I want to thank Chairman Smith 
and Ranking Member Engel for their work on this important 
measure and recognize the contributions made by Mr. Cicilline 
and Mr. Perry. I encourage members to support the bill and the 
amendments.
    We go to House Resolution 758, condemning the actions of 
the Russian Federation. We thank Mr. Kinzinger for introducing 
this bill. Obviously, Russia's continuing political, military, 
and economic aggression against Ukraine, as well as Georgia and 
Moldova, needs to be called out. Unfortunately, the U.S. and 
international sanctions imposed on Moscow have not yet 
convinced Putin to reverse course and end his aggression 
against Ukraine. We need to keep the pressure up.
    And, lastly, House Resolution 714, South China Sea 
Resolution.
    And I want to take a moment before concluding our remarks 
here to thank the gentleman from American Samoa, Mr. 
Faleomavaega, for his nearly 4 decades of service in Congress 
and on this committee.
    And I want to thank him also for his authorship of House 
Resolution 714, which rightfully calls for a peaceful 
resolution of the ongoing territorial disputes in the South 
China Sea--a critical commercial hub rife with shipping lanes, 
energy resources, fishing territories. And this is a blueprint 
to get us back to a peaceful resolution.
    So thank you, Mr. Faleomavaega. And you will be missed. 
[Applause.]
    I now recognize our ranking member, Mr. Engel of New York, 
for his remarks.
    Mr. Engel. Thank you very much, Mr. Chairman.
    Let me, before I make my remarks on the bill, just quickly 
talk about two of the things that you mentioned.
    I am glad that our bill giving the arms to the Peshmerga is 
going in, is being introduced today. It is something that 
affects all of us, and we have been frustrated about it for 
some time.
    Flying to Erbil, when we were in the region, I remember how 
we couldn't go there because there was just so much red tape it 
became ridiculous. And so I hope--I am sympathetic to what Mr. 
Rohrabacher had to say. I think it is ridiculous that there are 
restrictions placed on Members of Congress to do this.
    But thank you, Mr. Chairman, for holding this important 
markup and for the bipartisan approach, as always, you have 
brought to all of these measures.
    Firstly, let me express my strong support for H.R. 2901, 
the Senator Paul Simon Water for the World Act. I applaud Mr. 
Blumenauer and Mr. Poe for their hard work on this bill, which 
has garnered more than 100 bipartisan cosponsors.
    The United States and our partners have helped provide 
clean water to millions of the world's poorest people. Despite 
that progress, more than 750 million people still lack access 
to clean water and 2.5 billion don't have proper sanitation 
facilities. This bill will help target our investment in water-
development programs where they need it most, and I urge my 
colleagues to support it.
    Next, I want to thank Congressmen Grayson and Smith for 
their leadership in introducing H.R. 5206. This legislation, as 
amended, would allow Foreign Service officers killed in the 
line of duty to designate the beneficiary of their death 
gratuity if they have no surviving spouse or children. This 
will obviously give our diplomats benefits similar to that 
provided to our servicemembers, and I urge my colleagues to 
join me in supporting this measure.
    Mr. Chairman, I also support H.R. 5241, legislation 
introduced by Congressman Connolly to prohibit the United 
States from recognizing Russia's illegal annexation of Ukraine. 
This brazen act is one of the most serious violations of 
international norms since the Second World War.
    Putin's nonsense rings hollow when he talks about trying to 
protect ethnic Russians and that is the reason for his 
aggression. It reminds me of the same thing that Adolf Hitler 
said in 1938 when he went into the Sudetenland supposedly to 
protect ethnic Germans. Dictators always use this as an excuse, 
and the world shouldn't be fooled by it. We need to send Putin 
a clear message that his forcible takeover of Crimea, an 
integral part of the sovereign nation of Ukraine, will never be 
recognized by the United States.
    Next, I strongly support H.R. 5656, the Global Food 
Security Act of 2014. Around the world, 842 million people are 
hungry. Malnutrition causes about half of all deaths of 
children under 5. That amounts to 3.1 million children each 
year.
    I had a discussion earlier in the week with the USAID 
Administrator, Rajiv Shah, who said that this bill was one of 
his priorities and very, very important. And I want to thank 
you, Mr. Chairman, for your personal help and intervention in 
making sure that this is on the calendar. I think we are doing 
good work by passing this bill.
    USAID's Feed the Future Initiative, championed by 
Administrator Rajiv Shah, is only a few years old, yet has 
already delivered real results in fighting world hunger, 
poverty, and malnutrition. This bill, authored by 
Representatives Smith and McCollum, authorizes this proven 
approach to food security.
    Mr. Chairman, I also support H.R. 5685, the Rewards for 
Justice Congressional Notification Act. And I thank Congressman 
McCaul for his work on this issue. Quite simply, this bill 
would require the administration to notify Congress when it 
authorizes a reward under the Rewards for Justice Program. The 
committee already passed this language as part of H.R. 5041, 
the Naftali Fraenkel Rewards for Justice Act, and we should do 
so again.
    Mr. Chairman, I would like to thank you for including the 
Ebola Emergency Response Act, H.R. 5710, in today's markup. 
This important legislation provides key authorities in support 
of the ongoing American response to the outbreak of Ebola in 
West Africa. It also asserts our committee's jurisdiction over 
this issue by authorizing the International Disaster Assistance 
Account at USAID.
    I would like to thank you, Mr. Chairman--Mr. Chairman 
Royce, Mr. Smith, and Ms. Bass, for their hard work on this 
bipartisan legislation and encourage all of my colleagues to 
support it.
    I would also like to express my support for the amendment 
offered by Congressman Cicilline in the en bloc, which 
recognizes the critical contributions made by health workers in 
the fight against Ebola.
    Next, I would like to thank Mr. Faleomavaega for 
introducing H. Res. 714, which reaffirms the strong support of 
the United States for peaceful resolution to disputes in the 
South China Sea and East China Sea.
    The United States is a Pacific power. We have a vital 
interest in freedom of navigation and overflight in these 
disputed areas and unimpeded lawful commerce. These rights are 
universal, not granted by some states to others. The East and 
South China Sea disputes must by resolved diplomatically and 
without force or coercion. Territorial claims and arbitration 
of those claims should be based in international law.
    I would like to take this opportunity to recognize Mr. 
Faleomavaega for all of his contributions to this committee. 
Mr. Faleomavaega and I are classmates. We both came to Congress 
back in 1988. We have been on this committee ever since then, 
and we have worked so closely together.
    I was just at a party, a farewell party I guess, that he 
had in his office last night. I was reminiscing with him and 
his wife about all the trips that we all took together in those 
early years with my wife and me and all the good times we had.
    So, Eni, we are going to miss you, but we hope that you 
will continue to come around and give us your advice and 
counsel. We really love you, and we really think that you are 
just a Member's Member.
    Over the years, Mr. Faleomavaega has served with great 
distinction as both chairman and ranking member of the 
Subcommittee on Asia and the Pacific. He was talking about the 
importance of Asia for the United States long before anyone 
decided we needed a pivotal rebalance to the region.
    So, Eni, you will be missed. We love you, and we wish you 
the best in your future endeavors. [Applause.]
    Mr. Chairman, I would also like to express my support for 
H. Res. 758, a resolution introduced by Congressman Kinzinger 
that condemns Russian aggression in Ukraine and other areas.
    This resolution reaffirms our position that Russia's 
aggression is unacceptable. But I support taking even stronger 
action. We need to dial up the pressure on Russia and expand 
our assistance to Ukraine, including the provision of lethal 
aid and defensive weapons.
    At this moment, Ukraine faces an ongoing invasion of 
Russian military forces, daunting economic challenges, and the 
prospect of a harsh winter ahead. This crisis ranks among the 
greatest threats to European security since the Second World 
War.
    Vladimir Putin's aggression poses a direct threat to the 
interests of the United States and our allies, and I look 
forward to working with the chairman on legislation to confront 
this crisis in Europe's largest country. Nobody is proposing a 
land war or any kind of war with Putin, but there are sanctions 
that can be had that can really make him understand the 
economic sanctions, that there is a price to pay for his 
aggression.
    And, finally, before I close, Mr. Chairman, I want to thank 
my friend Congressman Brad Schneider for his service to the 
people of the 10th District of Illinois and to this committee.
    Brad came to Congress ready to work, full of ideas, and 
with a real commitment to getting things done. Through his 
leadership and bipartisan work with Mr. Meadows, this House 
considered an important bill to block Hezbollah's access to the 
global financial system. He and Mr. Collins also introduced and 
passed legislation to improve Israel's QME, or qualitative 
military edge.
    I have always appreciated Brad's thoughtful approach and 
his sound advice. I have gotten to know him very well and have 
relied upon him numerable times for so many important things.
    Brad, this committee won't be the same without you. We wish 
you well and Godspeed. [Applause.]
    And, finally, Mr. Chairman, in closing, I would like to 
thank you once again for your bipartisan leadership of this 
committee. I am very proud of the members on both sides of the 
aisle of this committee, and I truly can say that I think the 
Foreign Affairs Committee is the best darn committee in all of 
Congress.
    Thank you, Mr. Chairman. [Applause.]
    Chairman Royce. Well, thank you, Mr. Engel.
    There is one unfortunate development on the floor calendar, 
and that is that they have moved the votes up and we are going 
have a vote in about 10 minutes. I would encourage the members, 
we can submit statements for the record, but as I recognize you 
for comments, I would hope you would be succinct.
    And so who is in the queue here?
    Ms. Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman.
    I will put my statement in the record, and I just wanted to 
give a good shout-out to a true American treasure.
    Eni, we are going miss you a lot. And I did not know that 
you had met Elvis. You are a cooler dude than I thought.
    Thank you.
    Chairman Royce. I think we should go right to Eni.
    Mr. Faleomavaega?
    Mr. Faleomavaega. Mr. Chairman, my distinguished ranking 
member, I want to thank you for including House Resolution 714 
for markup, and I appreciate your support of my amendment in 
the nature of a substitute, which will be considered today.
    Since 2012, I have called for a peaceful and collaborative 
resolution of maritime territorial disputes in the South and 
East China Seas. Many of my colleagues, both Republicans and 
Democrats, have stood up with me on this issue, and I want to 
especially thank Chairman Ileana Ros-Lehtinen and Chairman 
Steve Chabot for their leadership on this matter.
    I also thank each of you for agreeing to move this 
resolution forward. This will be the last resolution introduced 
by me, and it is my sincere hope that, given the importance of 
this resolution, that the House will consider it before the 
113th Congress ends.
    I have served on the House Foreign Affairs Committee since 
I first came to the U.S. Congress in 1989. For as long as I 
have served, it has been and continues to be my belief that the 
United States should pay more attention to the Asia-Pacific 
region. Two-thirds of the world's population resides in the 
Asia-Pacific region.
    We should also pay particular attention to the ongoing 
tensions in the South and East China Seas. Although the United 
States Government is not a claimant in maritime disputes in 
either the East China or South China Seas, the United States 
has an interest in the peaceful, diplomatic resolution of 
disputed claims in accordance with international law and 
freedom of navigation and overflight and the free flow of 
commerce, free of coercion, intimidation, or the use of force.
    In 2002, the Association of Southeast Asian Nations, which 
is ASEAN, and China committed to developing an effective code 
of conduct. But, regrettably, China has increased oil 
exploration in disputed areas, implemented measures which 
attempt to change fishing regulations, cut the cables of a 
Vietnamese exploration ship, used guns to threaten Vietnamese 
fishing boats, warned an Indian naval vessel, rammed Japanese 
patrol boats, fired shots at a Philippine fishing boat, killed 
a Taiwanese fisherman, established Sansha City, conducted 
military exercises in the South Chinese Sea to flex its muscle 
and deter other claimants, and declared an Air Defense 
Identification Zone, ADIZ, over the East China Sea. And this is 
just the tip of the iceberg, I submit, Mr. Chairman.
    I commend Vietnam for its peaceful but courageous stand, 
which led to China's withdrawal of the Chinese HD-981 oil rig. 
And I also commend Taiwan and Japan for peacefully reaching an 
agreement and jointly sharing fishing resources in their 
overlapping EEZs through the East China Initiative, which 
demonstrates that resolution can be achieved through peaceful 
means.
    And as our Savior said and taught us, hopefully, in the 
Sermon on the Mount, blessed are the peacemakers, for they 
shall be called the children of God. And as I leave this 
distinguished committee and this great institution--and I have 
had the privilege and honor and will remember you all, truly, 
as peacemakers--I hope I will be remembered as a peacemaker, as 
well. I believe in peace, and I thank you for the opportunity I 
have had to associate with each of you.
    And for those who have served with us in this distinguished 
committee, it has been my distinguished honor to serve as 
chairman. Steve Chabot on the Subcommittee on Asia and the 
Pacific, I am going to miss him and each of you. But I have 
every confidence that you will continue to be instruments for 
good for a great Nation and ultimately to promote peace 
internationally.
    With that, I yield, Mr. Chairman. [Applause.]
    Chairman Royce. Thank you.
    And we go now to Mr. Chris Smith.
    Mr. Smith. Thanks, Mr. Chairman. I will be very brief and 
ask that all of my statements be made a part of the record.
    To Eni Faleomavaega, thank you for your service.
    Eni and I have served on many committees together over the 
many years. And he has provided an education, I think, for all 
of us, particularly on nuclear testing and the deleterious 
effects it has had, continues to have on people in the South 
Pacific.
    So thank for your good work, and we will miss you, Eni.
    Very briefly on the Global Food Security Act, H.R. 5656, 
let me thank Chairman Royce and Eliot Engel, Chairman Royce for 
scheduling this important markup, for the helpfulness of the 
committee staff: Piero Tozzi, Joan Condon, Katy Crosby, Tom 
Sheehy, Ed Burrier, Doug Anderson, Janice Kagayutan, 
legislative counsel Mark Synnes. I don't think there is a 
better legislative counsel on all of Capitol Hill. I have been 
on a number of committees in the past and he does the best work 
I have ever seen.
    I want to thank my prime cosponsor, Betty McCollum, and her 
staff, Kelly Stone and Jean Holcomb, and, of course, Ranking 
Member Karen Bass, with whom we do everything in a very 
bipartisan way.
    This is important legislation. It is urgent legislation to 
help provide a durable solution to global hunger by authorizing 
existing national food security programs and then laying out a 
roadmap for the future.
    We held a hearing on March 25th of this year on the 
critical first 1,000 days of life, from conception to the 
second birthday. We have been working African leaders on that 
for well over 7 years. And that is the key time, if you want to 
save lives and if you want to hopefully have a live that is 
filled with immunity against malaria and a whole lot of other 
things going forward, that is when you have to fortify these 
children with good food and good supplementation.
    In Nigeria--and I was in Abuja this year and spoke in a 
conference--in Nigeria alone, 562,000 kids die every year as 
either stillborn or neonatal deaths. That can be cut to a very, 
very small number. Every death is important--every life is 
important. Every death, hopefully, can be averted. But we can 
cut that number, and it is all about making sure that there is 
proper food and supplementation.
    And this also gives us the ability--and I would ask to put 
in a letter by Dr. Shah. He lays out some of the great 
successes already achieved.
    The Ebola Emergency Response Act, cosponsored by myself and 
Karen Bass, is also an important bill that puts a framework and 
gives Congress a further role in ensuring that this terrible 
crisis of Ebola is combated. We have had three hearings in the 
subcommittee. Chairman Royce had a major hearing in the full 
committee. We think we know what we have to do. This provides 
additional support.
    And, finally, to Congressmen Blumenauer and Poe, we had a 
hearing on August 1, 2013, on his legislation and on the 
initiative. Thank you. Water is a precious resource. This will 
provide more of it and making sure that it is clean.
    I yield back.
    Chairman Royce. Yeah, well, the vote is on, so we are going 
to go to Mr. Connolly of Virginia.
    Mr. Connolly. Thank you, Mr. Chairman. I will try to speak 
fast.
    I want to thank you and Mr. Engel for bringing up this 
package of en bloc bills, especially my bill and that of Mr. 
Chabot, H.R. 5241, the Crimea Annexation Non-recognition Act.
    The dangerous precedent set in Crimea cannot be 
understated--or overstated. Russia's illegal annexation of 
Crimea undermines Ukrainian sovereignty and threatens the 
stability of European borders. Acquiescence on the part of the 
United States and its allies would threaten the security of 
sovereign nations. Who is next? Moldova? Georgia? The Baltic 
Republics?
    For a country seeking to shed authoritarian institutions, 
Western economic prosperity and democratic freedoms have 
historically functioned like a shining beacon. Cold-war-era 
geopolitics dictated that the end game for the Soviet Union was 
to extinguish that beacon. In the post-cold-war era, 
unfortunately Putin's Russia seems once again to be setting its 
sights anew on extinguishing that beacon.
    When Russian troops were identified as fomenting unrest in 
Crimea in February of this year, the Russian Prime Minister, 
Putin, adamantly denied any such involvement. By April, Russia 
had illegally annexed Crimea and Putin had come clean about 
blatant Russian intrusion into Crimea, admitting that Russian 
troops had been deployed to Crimea before the illegal 
annexation of March 21.
    Now Putin's playbook is being put to use in eastern 
Ukraine. Last week, NATO Secretary-General Stoltenberg 
certified a serious Russian military buildup in the eastern 
part of Ukraine. The U.S. and European allies have issued 
successive rounds of sanctions and warnings, as Russian 
aggression has mounted and spurred violence and destruction in 
the region, including the downing of a major commercial 
aircraft--a terrible loss of life.
    However, I continue to be stuck on Crimea, and I hope we 
are too. The U.S. lacks credibility objecting to Russia's 
aggression elsewhere, including eastern Ukraine, without a firm 
stance on the illegal annexation of Crimea in the first place. 
To concede Crimea, as George Bernard Shaw said, ``is to descend 
simply into a process of quibbling about the price.''
    Congress must make a simple declarative statement on 
Russia's illegal annexation of Crimea. This bill does just 
that.
    The legislation prohibits any Federal department or agency 
from taking any action or extending any assistance that 
recognizes or implies recognition of the de jure or de facto 
sovereignty of the Russian Federation over Crimea, its airspace 
or territorial waters. It authorizes the President to waive 
such prohibition if he determines that doing so is vital to 
U.S. National security interests, which I hope will never 
happen.
    As Mr. Engel indicated, during the cold war era, the United 
States had a policy of nonrecognition regarding the Soviet 
Union's annexation of the Baltic Republics. The U.S. Recognized 
neither the de jure nor de facto sovereignty of the Soviet 
Union over those republics.
    Our policy of nonrecognition did not end in 1991 because it 
had become outdated or failed to recognize a fait accompli on 
the ground, although I can attest there were many in Washington 
and elsewhere who believed it quixotic that we did not 
recognize such de facto occupation and that those Baltic 
Republics would forever be in the Soviet Union. The Baltic 
people gained their independence in 1991, almost 50 years after 
Soviet occupation after World War II, and today Estonia, 
Lithuania, and Latvia are NATO allies.
    This is an important moment for the United States and our 
allies. We are not seeking a return to cold-war brinkmanship, 
but all of our last century's history tells us that the bullies 
can never be satisfied by concession.
    I thank the chair and the ranking member.
    Chairman Royce. I thank you, Mr. Connolly.
    In September, we had the Secretary of State here before 
this committee, and Mr. Rohrabacher raised the issue at that 
time of providing temporary authority to provide weapons 
directly to the Kurdish Peshmerga forces. The legislation that 
myself, Mr. Engel, and Mr. Rohrabacher will draw up today will 
do exactly that.
    We now go to Mr. Rohrabacher of California.
    Mr. Rohrabacher. I will be supporting the en bloc 
amendment, but let me remind our colleagues that this is only 
saying that these bills should be permitted to come to the 
floor.
    I have some serious objections to several of these bills. I 
would, for example, have been much more pleased with 
legislation calling for Russia to have internationally 
supervised elections in Crimea to see where the people of 
Crimea would like to go, what their sovereignty would say at 
the ballot box.
    But, with that, knowing that we have very limited time, I 
will support the en bloc amendment, realizing there are some 
disagreements on other areas, like with Mr. Blumenauer and the 
efforts of Mr. Smith, with helping children and getting better 
water. Of course, we are all in favor of that.
    One last note: Eni and I went to one of our first CODELs 
together up to northern Pakistan into--what is the name of that 
city, Eni, up there? Peshawar. Peshawar. And the State 
Department didn't try to stop us. We were meeting with some 
very radical elements of the Afghan society, and at the end of 
our meetings, instead of trying to say, ``You can't come and 
talk to these people,'' they issued us guns and said, ``Put 
these guns under your pillow, and if anybody tries to come in 
your room during the evening, shoot them, because they are 
there to kill you.'' And that is a far-cry difference from the 
attitude we have now with the roadblocks; ``Don't talk to 
anybody, and don't come up.''
    So, with that, Eni, it has been a wonder working with you. 
God bless you.
    Chairman Royce. Mr. Rohrabacher, I had wondered why Eni 
started laughing when you started to tell the story, and now we 
all know why.
    Mr. Rohrabacher. Thank you, Mr. Chairman. I yield back.
    Chairman Royce. Thank you.
    We have 5 minutes left on the vote. If I hear no further 
requests for recognition, I will call the question on the items 
considered en bloc.
    Hearing no further requests, all those in favor, say aye.
    All those opposed, no.
    In the opinion of the chair, the ayes have it. And the 
measures considered en bloc--H.R. 2901, 5206, 5241, 5656, 5685, 
5710, and House Resolution 714 and House Resolution 758--are 
agreed to, as amended.
    Without objection, each of the measures, as amended, is 
ordered favorably reported as a single amendment in the nature 
of a substitute.
    Staff is directed to make any technical and conforming 
changes.
    And that concludes our business today. I thank our ranking 
member and all the committee members for their contributions 
and assistance.
    The committee is adjourned.
    [Whereupon, at 10:13 a.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   Material submitted for the record by the Honorable Christopher H. 
    Smith, a Representative in Congress from the State of New Jersey

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              [all]
</pre></body></html>
